   September 30, 2002




Cooperative
Threat Reduction
Cooperative Threat Reduction
Program Liquid Propellant
Disposition Project
(D-2002-154)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

CTR                   Cooperative Threat Reduction
DTRA                  Defense Threat Reduction Agency
MOD                   Ministry of Defense
RASA                  Russian Aviation and Space Agency
SOAE                  Strategic Offensive Arms Elimination
             Office of the Inspector General of the Department of Defense
Report No. D-2002-154                                                  September 30, 2002
      (Project No. D2002LG-0119)

                         Cooperative Threat Reduction Program
                          Liquid Propellant Disposition Project

                                          Executive Summary

Who Should Read This Report and Why? DoD civilian and military personnel who
manage international programs should read this report. This report discusses topics that
international agreements should include.

Background. This audit is one in a series of audits the Deputy Secretary of Defense
requested. As part of the Cooperative Threat Reduction (CTR) Program, DoD agreed to
assist the Russian Federation in disposing of its liquid rocket propellant. Public
Law 102-228 (section 2551 [note], title 22, United States Code), the Soviet Nuclear
Threat Reduction Act of 1991 designates DoD as the executive agent for the CTR
Program. Specific objectives of the act are to destroy chemical, nuclear, and other
weapons; transport, store, disable, and safeguard weapons in connection with their
destruction; and establish verifiable safeguards against proliferation of weapons of mass
destruction. The Office of the Assistant Secretary of Defense (International Security
Policy), under the Office of the Under Secretary of Defense for Policy, develops,
coordinates, and oversees implementation of policy for the CTR Program. The CTR
Directorate, Defense Threat Reduction Agency operates the program.

The direction of DoD assistance for disposal of liquid rocket propellant changed after the
initial agreement. DoD initially agreed to provide equipment, services, and training so
that Russia could incinerate 30,000 metric tons* of liquid propellant (heptyl) and 123,000
metric tons of oxidizer (amyl and mélange). However, DoD ultimately financed facilities
that would convert the propellant and oxidizer into commercial products. As of July 2,
2002, DoD had obligated at least $164.5 million and disbursed $137.2 million to assist
Russia in the disposal of heptyl and amyl.

Results. Although the Defense Threat Reduction Agency obligated $112.2 million and
disbursed $95.5 million through July 2, 2002, to design and build facilities that would
convert heptyl and amyl into commercial products, Russia informed DoD in
February 2002 that Russia used the heptyl and amyl for its commercial space program.
As a result, the heptyl and amyl disposition facilities that cost the United States
$95.5 million will not be required for their intended purpose. In addition to those costs,
the Defense Threat Reduction Agency has obligated $1.2 million for maintenance and
security of the heptyl disposition facility while DoD considers the future of the facility.

The Under Secretary of Defense for Policy could reduce program risks by negotiating
implementing agreements requiring a commitment from Russia to provide the weapon
systems and their components, provide adequate transparency rights to DoD, and include

*
    A metric ton equals 2,204.6 pounds.
remedies. By deciding on the future of the heptyl disposition facility, the Under
Secretary of Defense for Policy could reduce U.S. costs by more than $197,000 a month.
The Under Secretary of Defense for Policy could reduce U.S. costs and increase the
cooperative nature of the CTR Program by requesting that Russia use the proceeds from
the sale of heptyl for CTR Program purposes. The Director, Defense Threat Reduction
Agency could have more assurance that Russia will provide weapons systems for
disposal by performing more complete inspections of equipment provided to Russia and
by identifying other potential uses that Russia may have for weapon systems that Russia
has agreed to provide for disposal. The Director, Defense Threat Reduction Agency
could help ensure that DoD officials are aware of risks involved with the CTR Program
by reporting identified risks to the Under Secretary of Defense for Policy. (See the
Finding section of the report for the detailed recommendations.)

Management Comments. The Under Secretary of Defense for Policy and the Defense
Threat Reduction Agency concurred with the recommendations. The Under Secretary
stated that executive agents for Russia have agreed to amend implementing agreements to
legally commit Russia to using U.S. assistance for intended purposes. In addition, an
implementing arrangement was drafted for signature between DoD and the Russian
Aviation and Space Agency, providing U.S. representatives continuous access to Russian
project sites. The Under Secretary agreed to investigate the inclusion of remedies in
implementing agreements with Russia, but stated doing so may not be beneficial from a
policy perspective. The Under Secretary also stated that DoD is reviewing Defense
Threat Reduction Agency recommendations on the future of the liquid propellant
disposition facility. Further, the amended implementing agreement provides for audits of
proceeds from CTR assistance. Also, the Under Secretary believes that the proceeds
from heptyl sales must be monitored, applied to other CTR Program projects, and be
subject to future audits and examinations. The Director, Defense Threat Reduction
Agency stated that pending Office of the Under Secretary of Defense for Policy approval,
the audit and examination team is preparing to inspect intermodal containers and review
associated shipping documents. Also, the Director will prepare a report on the risks to
achieving program objectives for the Under Secretary of Defense for Policy.

Audit Response. The planned actions are positive steps in the right direction. However,
the Under Secretary needs to clarify four planned actions or planned alternative actions.
For the recommendations to include remedies in agreements, to use the proceeds from the
sale of heptyl for program purposes, and to mitigate program risks associated with
achieving program objectives, the Under Secretary should more clearly describe the
planned actions that will be taken. For the recommendation to expedite the determination
of the future of the heptyl disposition facility, the Under Secretary should identify the
planned use of the facility. We request that the Under Secretary provide comments that
clarify the planned actions or alternative actions by November 29, 2002. See the Finding
section of the report for a discussion of management comments and the Management
Comments section of the report for the complete comments.




                                           ii
Table of Contents

Executive Summary                                                    i

Background                                                           1

Objectives                                                           3

Finding
     Facilities That Dispose of Rocket Propellant and Oxidizer       4

Appendixes
     A.   Scope and Methodology                                     17
     B.   Prior Coverage                                            18
     C.   Liquid Propellant Disposition Process                     19
     D.   Pictures of the Heptyl Disposition Facility               20
     E.   Heptyl-Fueled Launches and Heptyl Use Since 1990          24
     F.   Report Distribution                                       27

Management Comments
     Office of the Under Secretary of Defense for Policy Comments   29
     Defense Threat Reduction Agency Comments                       34
Background
    On March 18, 2002, the Deputy Secretary of Defense requested that the Office of
    Inspector General of the Department of Defense (IG DoD) review the
    Cooperative Threat Reduction (CTR) Program project to convert liquid rocket
    fuel removed from intercontinental ballistic missiles in the Russian Federation
    (Russia) into a more benign substance, to provide advice on protecting DoD from
    similar pitfalls on other U.S.-funded projects that rely on Russian assurances, and
    to review the organizational arrangements between the CTR Policy office within
    the Office of the Under Secretary of Defense for Policy and the CTR Directorate
    at the Defense Threat Reduction Agency (DTRA). This report presents our
    conclusions on the rocket fuel project. The Office of Intelligence Review, IG
    DoD will provide advice in a separate report on how the intelligence community
    can improve DoD oversight on other CTR projects. We will also conduct a
    separate review to identify and evaluate other CTR projects that rely on Russian
    assurances, and evaluate organizational arrangements within DoD.

    To reduce the threat posed by the weapons of mass destruction that remain in the
    territory of the former Soviet Union, Congress enacted Public Law 102-228
    (section 2551 [note], title 22, United States Code), the Soviet Nuclear Threat
    Reduction Act of 1991. Public Law 102-228 designates DoD as the executive
    agent for the CTR Program. Public Law 102-228, and subsequent laws that
    continue the CTR Program, are commonly referred to as Nunn-Lugar legislation.
    Objectives of the act are to destroy chemical, nuclear, and other weapons;
    transport, store, disable, and safeguard weapons in connection with their
    destruction; and establish verifiable safeguards against proliferation of weapons
    of mass destruction. From FY 1992 through FY 2002, Congress appropriated
    $4.7 billion for the CTR Program. With those funds, DoD provided assistance to
    Belarus, Georgia, Kazakhstan, Moldova, Russia, Ukraine, and Uzbekistan.

    Framework for Assistance. DoD provides assistance to countries of the former
    Soviet Union through umbrella agreements and implementing agreements. The
    umbrella agreement with Russia, signed on June 17, 1992, establishes the overall
    framework under which the United States provides assistance to Russia. The
    umbrella agreement, which was to expire in June 1999, was extended by a
    protocol in June 1999 for an additional 7 years. The implementing agreements
    signed between DoD and designated executive agents of countries of the former
    Soviet Union outline the assistance and amounts the United States will provide.
    Generally, implementing agreements have been amended each year to increase
    the amount of assistance. The liquid propellant disposition project is managed
    under an implementing agreement commonly referred to as the Strategic
    Offensive Arms Elimination-Russia (SOAE-Russia) implementing agreement.

    Russian Executive Agents. Although the umbrella agreement states that Russia
    and the United States shall enter into implementing agreements through executive
    agents and identifies the Ministry of Atomic Energy as Russia’s executive agent,
    DoD entered into an implementing agreement with Russia’s Committee for
    Defense Industries on August 26, 1993. On February 11, 1998, the implementing
    agreement was amended to transfer executive agent responsibility to the Ministry
    of Economics. Russia eliminated the Ministry of Economics in 2000 and moved


                                         1
executive agent responsibility to the Russian Aviation and Space Agency
(RASA). On August 30, 2002, DoD negotiated an implementing agreement
identifying RASA as the Russian executive agent.

DoD Program Management. The Office of the Assistant Secretary of Defense
(International Security Policy), under the Office of the Under Secretary of
Defense for Policy, develops, coordinates, and oversees implementation of policy
for the CTR Program. Since September 30, 1998, the CTR Directorate, DTRA
has managed the day-to-day operations of the CTR Program. Prior to then, the
Office of Under Secretary of Defense for Acquisition and Technology (now
Acquisition, Technology, and Logistics) directed the CTR Program while the
Defense Nuclear Agency, which became the Defense Special Weapons Agency in
June 1995, managed projects.

Disposal of Liquid Propellant. Russia requested U.S. assistance to dispose of
30,000 metric tons1 of liquid fuel (unsymmetrical dimethyl hydrazine) as well as
123,000 metric tons of oxidizer (dinitrogen tetroxide and mélange2). In Russia,
unsymmetrical dimethyl hydrazine and dinitrogen tetroxide are known as heptyl
and amyl, respectively. Russia needed assistance with the disposal of liquid
propellant to facilitate the disposal of intercontinental ballistic missiles and
submarine-launched ballistic missiles. The liquid propellant disposition project
includes removing the heptyl and amyl from missile sites, transporting the
material to storage sites, and converting the material into commercial products. A
more complete description of the liquid propellant disposition project is in
Appendix C.

In the SOAE-Russia implementing agreement, DoD agreed to provide equipment,
services, and training to Russia so they could incinerate the heptyl and amyl. The
equipment included 8 transportable incinerators and 220 tanker railcars. In a
March 1994 meeting with Russian officials, however, the Special Coordinator for
Cooperative Threat Reduction, under the Assistant Secretary of Defense
(International Security Policy), stated that DoD would develop a contract
solicitation for heptyl disposal. Also, the Special Coordinator stated that instead
of tanker railcars DoD would provide intermodal containers, flatbed railcars, and
cranes for handling the intermodal containers. As of July 2, 2002, DoD had
obligated at least $164.5 million and disbursed $137.2 million to assist Russia in
the disposal of heptyl and amyl.

Heptyl Disposition System. The heptyl disposition project would provide Russia
with two disposition systems,3 located in Krasnoyarsk, Russia, and capable of
converting 30,000 metric tons of heptyl into a commercial product. After a
contract competition, the Defense Nuclear Agency awarded contract

1
    A metric ton equals 2,204.6 pounds.
2
    Mélange is a mixture of dinitrogen tetroxide, nitric acid, and corrosion inhibitors used in tactical
    missiles.
3
    Initially, DoD was to provide three propellant disposition systems. However, because Strategic
    Arms Reduction Treaty II completion times were moved from 2003 to 2007, the third system
    was no longer needed. DoD is storing as replacement parts the parts for the third system at
    Krasnoyarsk.



                                                2
    DNA001-95-C-0066 to Thiokol Corporation in April 1995. Later, DoD modified
    that contract to include required equipment and infrastructure that Russia initially
    agreed to finance. DoD also awarded two other contracts to support the heptyl
    disposition system. One contract was for shipping required equipment to the
    facility and the other was for logistical support. As of July 2, 2002, DTRA had
    obligated $94.4 million and disbursed at least $85.4 million for the heptyl
    disposition facility and associated shipping and logistical support. In addition,
    DoD has obligated $1.2 million to maintain and secure the heptyl disposition
    facility, while DoD considers the future of the facility. Photographs of the heptyl
    disposition facility are in Appendix D.

    Amyl Disposition System. The amyl disposition system would provide Russia
    with up to two systems that would convert amyl into nitric acid. After a contract
    competition, DTRA awarded contract DTRA01-99-C-0057 to Bechtel National,
    Incorporated in June 1999. Initially, Bechtel National, Incorporated was
    contracted to design, fabricate, and test up to two mobile systems that would
    convert 43,000 metric tons of amyl and 80,000 metric tons of mélange into nitric
    acid. Later, DoD agreed with a Russian request that the systems be permanent
    and located at the Russian cities of Aleksin and Krasnoyarsk. In February 2002,
    DoD removed the mélange-processing requirement because mélange was not
    considered a strategic missile oxidizer. As of July 2, 2002, DTRA had obligated
    $17.8 million and disbursed $10.1 million for designing and building the amyl
    disposition systems.

    Other Assistance Associated With Propellant Disposal. DoD also provided
    equipment and transportation services to Russia that assisted with propellant
    disposal, and DoD was to operate and maintain the disposition facilities. DoD
    provided equipment, including 125 flatbed railcars, 670 intermodal tank
    containers, and 7 cranes to transport and temporarily store the propellant, as well
    as logistic support and shipping of the equipment, through 7 contracts. For those
    contracts, DTRA had obligated $47.8 million and disbursed $39.7 million as of
    July 2, 2002. DoD provided transportation services through several contracts for
    rail services to move the propellant from missile sites to storage sites in Russia.
    As of July 2, 2002, DTRA had obligated and disbursed $2 million to transport
    propellant. Operation and maintenance of the disposition facilities was included
    in an August 2000 contract awarded to Kellogg, Brown, and Root, Incorporated.
    That contract also required the contractor to dismantle intercontinental ballistic
    missiles and their launchers and plan for and transport propellant from storage
    sites to the disposition facilities. As of July 2002, DTRA had obligated
    $1.3 million to plan for and transition to disposition system operations, but did
    not have disbursement amounts readily available for that obligation.


Objectives
    The overall objective of this audit was to review the CTR project to convert liquid
    rocket fuel from intercontinental ballistic missiles into a more benign substance.
    Specifically, we evaluated the viability of the liquid rocket propellant disposition
    facilities built for Russia and controls over liquid rocket propellant. See
    Appendix A for a discussion of the audit scope and methodology.


                                         3
            Facilities That Dispose of Rocket
            Propellant and Oxidizer
            Although the CTR Program obligated $112.2 million and disbursed
            $95.5 million to design and build facilities that would convert heptyl and
            amyl into commercial products, Russian officials informed DoD in
            February 2002 that Russia used the heptyl and amyl for its commercial
            space program. That condition occurred because the SOAE-Russia
            implementing agreement did not require Russia to provide the heptyl and
            amyl for disposal and because neither the umbrella agreement nor the
            SOAE-Russia implementing agreement provided adequate access rights to
            DoD or remedies for non-performance. In addition, DTRA has not
            inspected the equipment the United States provided to Russia for
            transporting and storing the heptyl and amyl since June 1999, nor did
            DTRA identify other uses of the heptyl and amyl as a program risk. As a
            result, the heptyl and amyl disposition facilities that cost the United States
            $95.5 million through July 2, 2002, will not be required for their intended
            purpose. In addition to those costs, DTRA has obligated $1.2 million for
            maintenance and security of the heptyl disposition facility while DoD
            considers the future of the facility.


National Defense Authorization Act for Fiscal Year 2002
     Section 1304 of the Public Law 107-107, National Defense Authorization Act for
     Fiscal Year 2002, requires the Secretary of Defense to consider the use of revenue
     generated by activities carried out under CTR programs in negotiating and
     executing contracts with Russia.


Management Control Guidance
     Office of Management and Budget Circular No. A-123, “Management
     Accountability and Control,” June 21, 1995, provides guidance to Federal
     managers for improving the accountability and effectiveness of Federal programs
     and operations by establishing, assessing, correcting, and reporting management
     controls. The circular states that management accountability is an expectation
     that managers are responsible for the quality and timeliness of program
     performance, increasing productivity, controlling costs, and mitigating adverse
     aspects of agency operations. The circular also states that management controls,
     including the organization, policies, and procedures, are tools used to reasonably
     ensure that programs achieve results and safeguard the integrity of programs. The
     circular requires managers to incorporate basic management controls in strategies,
     plans, guidance, and procedures that govern their programs and operations. It
     states that the controls shall be consistent with specific standards drawn from the
     “Standards for Internal Control in the Federal Government,” issued by the
     General



                                          4
     Accounting Office. One specific standard cited in the guidance is that the
     management controls must provide reasonable assurance assets are safeguarded
     against waste, loss, unauthorized use, and misappropriation.

     “Standards for Internal Control in the Federal Government,” November 1999,
     provides the framework for establishing and maintaining internal control within
     the Federal Government. The guidance states that internal controls, which it
     identifies as synonymous with management controls, serve as the first line of
     defense in safeguarding assets. The guidance also states that management needs
     to identify risks and should consider all significant interactions with other parties
     as well as internal factors. In addition, the standards require that control
     activities, which are an integral part of an entity’s planning, implementing,
     reviewing, and accountability for stewardship of Government resources, help
     ensure that actions are taken to address risks.


Commercial Space Launch Agreement
     During the time that DoD and the Russian executive agent were planning to
     dispose of the heptyl and amyl from Russian missiles, the United States and
     Russia were negotiating Russia’s entry into the commercial space launch
     business. In September 1993, the United States and Russia signed the
     “Agreement Between the Government of the United States of America and the
     Government of the Russian Federation Regarding International Trade in
     Commercial Space Launch Services.” That agreement, amended in January 1996,
     sets forth the principles for Russia to contract with international customers to
     provide space launch services. The agreement allowed Russia to launch as many
     as 20 principal payloads through December 2000, when the agreement expired.
     The agreement requires Russia to ensure that market principles are applied to
     international competition; not to distort competition among providers of
     commercial space launch services; and not to engage in unfair business practices
     that secure contracts for commercial space launch services. Russia also agreed
     that its space launch service providers would charge prices comparable to prices
     that commercial space launch service providers from market economy countries
     offered. Russia has continued to provide commercial space launch services since
     the agreement expired.


State of the Liquid Propellant Disposition Project
     Although the CTR Program obligated $112.2 million and disbursed $95.5 million
     to design and build facilities that would convert heptyl and amyl into commercial
     products, RASA officials failed to inform DoD that Russia used the heptyl and
     amyl for its space program until confronted by DoD officials in February 2002.
     According to the DTRA project manager, the heptyl disposition systems were
     virtually complete as of April 2002, and the contractor was expected to start
     operating the disposition facility in July 2002. The amyl disposition facility was
     still in the design phase when DTRA terminated the contract in July 2002.



                                           5
Unavailable Liquid Propellant. According to DTRA officials, the initial
indication that heptyl would not be available for disposal was in January 2002
during informal discussions with RASA officials. Following those discussions,
on February 13, 2002, the Director, CTR Directorate telephoned the Director of
the Missile Technologies Division, RASA to obtain an explanation and request a
formal response. According to the DTRA record on the telephone discussion, the
RASA official confirmed “the reprocessed heptyl was made available to the
commercial Proton4 program and for missile development tests.” He also stated
that although heptyl tank farms were almost dry, the Ministry of Defense (MOD)
saw a continuing need for the heptyl disposition facility because of uncertainties
surrounding the number of future space launches.

Russia’s Official Response. In a letter dated May 24, 2002, the Director of the
Missile Technologies Division provided the official response for Russia. The
Director stated that although the heptyl disposition units were supposed to have
started functioning by the end of 1997, the disposition units were still not tested
or certified for operation. The Director projected that testing and certification
could take another year to complete. In explaining the situation in Russia, the
Director stated that by the mid-1990s, heptyl storage facilities at MOD sites were
full and Russia had stopped manufacturing new heptyl. He also stated that Russia
had stopped producing land-based and sea-based ballistic missiles and that Russia
had very few commercial launches of the Proton rocket. Because Russia lacked
the capacity to produce and store heptyl, the Director explained that in 1996,
when the number of Proton launches started to increase, officials decided to
regenerate heptyl at its Salavat plant5 to fuel commercial launches. In explaining
why DoD was not informed, he stated
                However, practically speaking, given the extreme uncertainty of the
                constantly changing situation, it was very difficult for Russia to inform
                you properly without harming Russia’s plans associated with strategic
                offensive arms elimination under START [Strategic Arms Reduction
                Treaty] I and II, since these plans made it possible to fairly fully load
                the two units being built in Krasnoyarsk with work.

Meetings With RASA Officials. The DTRA project manager and IG DoD
representatives met with RASA officials in June 2002. The Director of the
Missile Technologies Division indicated that untimely completion of the project
had little impact on the Russian decision to use the heptyl for space launches.
Regarding the delays, the Director explained that neither Russia nor the United
States fully understood the complexities involved with the heptyl disposition
project, which was new technology, until after the project started. The RASA
project manager for the heptyl disposition facility stated that he first learned that
Russia was using heptyl for the Russian space program in late December 2001.
The RASA project manager stated that prior to December 2001, officials of the

4
    A Proton is a Russian space launch vehicle that uses heptyl and amyl.
5
    In a followup meeting, the Director stated that in 1995 Russia converted the Salavat plant to a
    facility that could regenerate the heptyl removed from missiles. However, the Director stated
    that Russia is reconfiguring the plant so that it will produce new heptyl and that regenerating
    heptyl was not cost effective.



                                               6
    Fuels Directorate, MOD, which owned and controlled the heptyl, made frequent
    inquiries about when the disposition facility would be completed. The inquiries
    led the RASA project manager to believe a continuing need existed for a
    disposition facility. The RASA project manager acknowledged, however, that
    prior to December 2001, he had difficulties obtaining heptyl from MOD.
    Organizationally, the RASA project manager stated no coordination between his
    office and RASA offices responsible for space launches took place, which
    contributed to not knowing sooner that MOD was selling heptyl for space
    launches to the Khrunichev State Research and Production Space Center. Within
    the Russian government, the RASA project manager estimated that MOD
    deserved 75 percent of the blame for not informing DTRA sooner while RASA
    deserved 25 percent of the blame.6 In that regard, the RASA project manager
    stated that DoD should have had an agreement with MOD requiring delivery of
    heptyl to the disposition facility.


Launches of Heptyl-Fueled Vehicles
    During 1992 when DoD and Russian officials were initially making decisions on
    the disposal of heptyl and amyl, Russia was experiencing a decrease in the
    number of heptyl-fueled space launches. (In 1990, Russia launched 34 heptyl-
    fueled rockets. In both 1992 and 1993, the number decreased to 20 each year.)
    Since 1995, however, when the Defense Nuclear Agency contracted to build the
    heptyl disposition facility and RASA officials stated that Russia stopped
    producing new heptyl, Russia has launched 102 heptyl-fueled rockets through
    June 2002, using 12,500 metric tons of heptyl. In addition, Russia could have
    used significantly more heptyl to test rocket engines. According to a trip report
    prepared by a DTRA contractor, RASA officials stated Russia test fires each
    rocket engine using 100 percent of the fuel capacity.7 Details on Russian space
    launches and heptyl use from 1990 through June 2002 are in Appendix E.


Disposal Requirements, Equipment Inspections, and Risks
    Russia used the heptyl and amyl without DoD knowledge because the agreements
    with Russia did not require Russia to provide the heptyl and amyl for disposal,
    including remedies for non-performance, and did not provide DoD with any
    access rights over heptyl and amyl storage. Also, DoD has not performed
    inspections of the equipment the United States provided to Russia for transporting
    and storing the heptyl and amyl since June 1999, nor did DoD identify other uses
    of the heptyl and amyl as a risk to the program. Including requirements and better

    6
        We did not contact MOD to obtain its position.
    7
        According to an official at the National Aeronautics and Space Administration, each rocket
        engine undergoes acceptance testing using procedures agreed to between the manufacturer and
        user. That testing may or may not include a flight-duration test to evaluate flight worthiness. In
        addition, he stated that the engines would also undergo development, qualification, and
        certification testing, all of which would consume fuel.



                                                   7
access rights in agreements, along with conducting more frequent and
comprehensive inspections, would have helped ensure better stewardship of
Government resources used for the liquid propellant disposition project.
Identifying other uses of heptyl and amyl as a risk would have helped ensure that
actions were taken to address that risk.

Disposal Requirements and Access Rights. The SOAE-Russia implementing
agreement did not require Russia to provide the heptyl and amyl for disposal, and
neither the umbrella agreement nor the SOAE-Russia implementing agreement
provides adequate access rights to DoD. Also, those agreements did not include
any remedies in case Russia failed to provide the heptyl and amyl for disposal. In
addition, when DoD and Russia agreed to dispose of heptyl and amyl through a
competitive contract, the informal arrangements used did not require Russia to
provide the heptyl or amyl for disposal. Those informal arrangements included an
exchange of letters and the issuance of a joint statement between the United
States and Russia.

Heptyl and Amyl Disposal Requirements. The initial arrangements for DoD to
assist Russia in disposing of the heptyl and amyl are included in Annex A and
Annex B to the SOAE-Russia implementing agreement. However, the SOAE-
Russia implementing agreement did not require Russia to provide the heptyl and
amyl for disposal. Annex A states that DoD may provide transportable
incinerators, capable of incinerating heptyl or amyl, along with other services and
maintenance. Annex B states that DoD may provide railcars for transportation
and temporary storage of heptyl and amyl. However, the SOAE-Russia
implementing agreement did not include provisions that require Russia to provide
the heptyl and amyl for disposal, and provided no remedies in case Russia failed
to do so. Instead, the SOAE-Russia implementing agreement limits Russia’s
responsibilities to providing DoD with documents that contain recommended
performance specifications and requirements for material, services, and training
the DoD provides.

Changes to the assistance agreed to in Annex A and Annex B were outlined in a
letter from the Special Coordinator for Cooperative Threat Reduction to Russia’s
Director of the Committee for Defense Industry, dated April 19, 1994. The
changes did not require Russia to provide heptyl and amyl for disposal. In that
letter, the Special Coordinator stated that instead of providing incinerators and
railcars, DoD would solicit private industry for proposals to eliminate heptyl in an
environmentally sound manner. The Special Coordinator also agreed that DoD
would provide intermodal containers, flatbed railcars, and cranes. As in the
SOAE-Russia implementing agreement, DoD did not require Russia to provide
the heptyl for disposal or provide any remedies if Russia did not use the
assistance provided. The United States and Russia met from April 19, 1994,
through May 6, 1994, to review the performance specifications for the heptyl
disposition project. The results of that meeting were summarized in a joint
statement. The joint statement states that Russia agreed to accept the most cost-
effective disposal method. However, the joint statement does not require Russia
to provide the heptyl for disposal.

Access Rights. Neither the umbrella agreement nor the SOAE-Russia
implementing agreement provides adequate access rights for DoD. The umbrella


                                     8
agreement provides DoD with the right to examine Russia’s use of material,
services, and training provided by the United States upon request and according
to procedures to which both countries agree. The SOAE-Russia implementing
agreement provides procedures for conducting audits and examinations. That
agreement requires that DoD provide a 30-day written notice prior to performing
an audit and examination as well as specifying that audits and examinations are
limited to no more than three each calendar year, and concurrently at no more
than two sites. The agreements did not allow DoD access to conduct inventory
inspections of heptyl and amyl at MOD tank farms. Also, officials from the
Office of the Under Secretary of Defense for Policy stated that they never sought
the right to inventory the heptyl; however, not inventorying the heptyl limited
their knowledge of the amount of heptyl available for conversion.

On June 15 and June 16, 1999, the United States and Russia signed a protocol that
extended the umbrella agreement for an additional 7 years and amended several
terms. The amended terms state that each country’s executive agent should
negotiate procedures for conducting audits and examinations. Until July 2002,
the Office of the Under Secretary of Defense for Policy had not arranged to
discuss DoD rights for conducting audits and examinations with Russia.
According to DTRA officials, DTRA had not inspected any equipment provided
under the SOAE-Russia implementing agreement, including intermodal
containers, since June 1999 because new arrangements had not been finalized. If
reinstituted, audits and examinations would complement project oversight DTRA
project managers provide.

Remedies. Neither the umbrella agreement nor the SOAE-Russia implementing
agreement provides for remedies should Russia fail to use the equipment,
services, and training DoD supplies to assist Russia in disposing of the heptyl and
amyl. Remedies included in the agreements would have provided DoD and
Russia’s executive agents with an understanding of the consequences and
procedures to follow if products are not delivered, making facilities unusable for
their intended purpose.

Equipment Inspections. Although DTRA has not performed an audit and
examination on equipment provided to Russia for transporting and storing the
heptyl and amyl since June 1999, the three inspections performed prior to that
date were not fully effective. Those inspections included audits and examinations
performed from March 27 through April 3, 1999, September 23 through
September 29, 1998, and June 9 through June 20, 1996. Although two
inspections identified that Russia improperly used some intermodal containers for
mélange, the audits and examinations performed during 1998 and 1999 were not
complete enough to identify the extent of improper use of the equipment.
According to a former member of the audit and examination team, the audits and
examinations were limited to comparing the serial numbers on intermodal
containers against the list of serial numbers the project manager provided,
identifying the location, and noting the condition of each container. The former
team member stated that the audit and examination team did not verify the
contents of the intermodal containers or examine rail transportation records.
Instead, Russian officials accompanying the team identified the contents of the
intermodal containers because team members did not have the equipment needed
to safely examine the intermodal containers. DTRA officials stated that the audit


                                     9
     and examination team also lacked the necessary training to safely inspect the
     intermodal containers and ascertain whether they actually held heptyl. Examining
     rail transportation records could have identified whether Russia was using the
     intermodal containers to ship the heptyl and amyl to space launch sites or other
     locations. However, DTRA officials stated that the audit and examination team
     did not have the right to examine the rail transportation records, or the Russian
     heptyl fuel tank farms, where the approximately 30,000 metric tons of heptyl was
     stored.

     Risks. As early as December 1992, Russian officials had informed DoD officials
     of plans to use some of the heptyl removed from ballistic missiles for space
     launches. However, Russian officials estimated that only 3,000 metric tons would
     be consumed. In 2000, DTRA started to include general and specific risks in its
     project plans for the heptyl disposition facility. General risks for that project
     included cost; project access, including the number of yearly visits by the project
     manager; time since the last audit and examination; site access restrictions; and
     project status. The specific risks for the heptyl disposition project were finding
     and training qualified Russian operators, and operational performance that
     followed long-term outside storage of the disposition facility. However, the
     project plans, which are updated annually, did not identify as a risk that Russia
     might use heptyl for other purposes. Other possible uses of heptyl should have
     been identified as a risk for three reasons. First, Russian officials informed DoD
     officials in 1992 of their plans to use for space launches some of the heptyl
     removed from ballistic missiles. Second, Russia’s executive agent did not control
     the heptyl. Third, DTRA did not have the authority to inventory heptyl Russia
     was storing at MOD sites. By identifying other possible uses of heptyl as a risk
     and informing the CTR Policy Office of that risk, DoD management could have
     taken action to mitigate the risk. DTRA officials stated that they would send
     reports regarding the risks to achieving program objectives to the Under Secretary
     of Defense for Policy through its chain of command, the Under Secretary of
     Defense for Acquisition, Technology and Logistics.


Fund Use and Options For the Heptyl Disposition Facility
     Because RASA officials stated that Russia has used most of the heptyl removed
     from ballistic missiles, the heptyl and amyl disposition facilities that cost the
     United States $95.5 million through July 2, 2002, will not be used for their
     intended purpose. In addition, the United States obligated $1.2 million to
     maintain the heptyl disposition facility from March 29 to September 30, 2002,
     while DoD considers the future of the facility. DoD also supplied assistance
     totaling at least $41.7 million to transport and store the heptyl and amyl.

     Fund Use. Because RASA officials stated that Russia has used most of the
     heptyl removed from ballistic missiles, the heptyl and amyl disposition facilities
     will not be used for their intended purpose. Had Russian officials informed DoD
     that Russia was using more heptyl for space launches than initially anticipated,
     DoD could have re-evaluated the disposition project sooner. A re-evaluation
     would have provided DoD with an opportunity to fund other important CTR
     projects that dismantled weapons of mass destruction.


                                         10
Options for the Fuel Disposition Project. After DTRA was notified about
Russia’s heptyl use, DTRA initially placed a stop-work order on the heptyl and
amyl disposition facilities while DoD developed and considered its options. In
February 2002, the Office of the Under Secretary of Defense for Policy drafted a
list of options and associated costs for the heptyl and amyl disposition facilities.
Although the options were provided on an interim basis until the Office of the
Under Secretary of Defense for Policy and DTRA could develop a more
comprehensive list, the options developed did not include alternatives for
assistance provided to Russia for de-fueling missiles and transporting heptyl and
amyl. In March 2002, DTRA requested that RASA provide options for the heptyl
and amyl facilities. RASA responded on May 24, 2002, stating that it would
consider options to convert the heptyl disposition units so the units could
eliminate chemical weapons or explosives, sell the units on the world market, or
mothball the units. As of July 23, 2002, DoD was considering the future of the
disposition facility, but did not make a decision.

         Heptyl Disposition Facility Options. The preliminary options for the
heptyl disposition facility included readying the systems for operation
($4 million), preparing the facility for storage “mothballing” ($600,000),
converting the facility for other CTR projects (costs unknown), and scrapping the
facility to sell high-value components ($5 million revenue).8 In its May 24, 2002,
response, RASA stated that although Russia could provide for disposal of about
12,000 metric tons of heptyl in the future, using the heptyl for pre-launch testing
of the Proton rockets made better financial sense. As of July 2002, the United
States continued to pay more than $197,000 a month to maintain and secure the
heptyl disposition facility, while DoD officials were deciding on a course of
action.

         Amyl Disposition Facility Options. The preliminary options for the
amyl disposition facility included completing the project ($30 million), providing
one unit ($18 million), terminating the project in its current state ($2.7 million),
and terminating the project after completing the design ($3.4 million). In its
May 24, 2002, response, RASA indicated that because Russia planned to combine
the disposal of amyl and mélange and the United States decided not to participate
in mélange disposal, Russia would finance oxidizer disposal alone. In addition,
RASA requested that the United States transfer the technical documents for the
disposition facility that were developed with U.S. funds to RASA. After
considering the options, DTRA terminated the contract for the amyl disposition
facility in July 2002, and according to DTRA officials they expect to deobligate
$3.5 million of unused contract costs. In addition, DTRA officials stated that they
plan to transfer in November 2002 the technical documents for the amyl
disposition facility to RASA.

        De-Fueling and Transportation. Although the preliminary options do
not include information on the future use of equipment and services to de-fuel
missiles and transport and store heptyl and amyl, as Public Law 107-107 requires,
DoD should consider that Russia was generating revenue from selling the fuel for
use in commercial space launches and that there are additional missiles to de-fuel.
8
DTRA officials informed us on September 25, 2002 that the revenue from the sale of high-value
components is estimated at about $3 million.



                                         11
    The breakdown of costs for de-fueling was not readily available, however, DoD
    assistance related to transporting and storing heptyl and amyl totaled at least
    $41.7 million through July 2, 2002. Those costs include $39.7 million for railcars
    and intermodal containers and $2 million for transporting heptyl and amyl from
    Russia’s northern naval facilities and from intercontinental ballistic missiles to
    MOD sites. DoD also paid to de-fuel missiles and transport heptyl and amyl from
    Russia’s Pacific naval facilities and to administer the projects.


Management Actions Taken
    After RASA officials notified DoD that Russia was using heptyl for commercial
    space launches, the Office of the Under Secretary of Defense for Policy
    established an Executive Review program and amended the SOAE-Russia
    implementing agreement.

    The Executive Review program was designed to increase communication between
    DoD and the Russian executive agents. The Executive Review program offers
    opportunities for DoD and Russian executive agents to identify and implement
    changes to project assumptions and objectives, obtain legally binding
    commitments, and avoid expenditure of funds if Russia cannot meet its
    commitments. The program requires officials from DoD and Russian executive
    agencies to review CTR projects that rely on unwritten, good faith obligations
    from Russia. The first Executive Review meeting took place the last week of
    July 2002. According to the Office of the Under Secretary of Defense for Policy,
    the DoD team reviewed all CTR projects that rely on good faith obligations and
    Russian executive agents stated that they were prepared to hold semi-annual
    reviews, amend implementing agreements to include binding legal commitments
    to use U.S. assistance for intended purposes, and sign documents that describe
    assumptions, requirements, and responsibilities for each project.

    The Office of the Under Secretary of Defense for Policy also stated that the
    SOAE-Russia implementing agreement was amended on August 30, 2002. The
    amended implementing agreement authorizes DoD to audit the proceeds of CTR
    assistance and extends the agreement until June 17, 2006.


Conclusions
    Although the CTR Program obligated $112.2 million and disbursed $95.5 million
    to design and build facilities to convert heptyl and amyl into commercial
    products, RASA officials informed DoD that Russia used the heptyl and amyl for
    its commercial space program. RASA officials agreed that Russia should have
    notified DoD of that use sooner. Citing communication problems within RASA,
    the RASA project manager for the heptyl disposition facility stated that he was
    not aware until December 2001 that Russia was using the heptyl from dismantled
    ballistic missiles for the space program.




                                        12
    Although Russia should have informed DoD, DoD could have provided better
    stewardship to protect the U.S. investment in the heptyl and amyl disposition
    facilities. Agreements should have required that Russia provide the heptyl and
    amyl for disposal and provide DoD with access to heptyl and amyl inventories.
    To ensure enforceability of any agreement, the proper instrument would be an
    implementing agreement, with remedies for non-performance.

    DoD now faces decisions on what to do with the heptyl disposition facility.
    Options include mothballing the facility, converting the facility for other CTR
    projects, or selling the high-value components of the facility. While DoD has
    considered all of those options, the United States has obligated $1.2 million to
    maintain the facility, more than $197,000 a month. According to RASA officials,
    heptyl tank farms are almost empty. Therefore, limited storage capacity for
    heptyl and amyl is no longer a hindrance to the destruction of ballistic missiles.
    As such, no reason appears to exist for DoD to unnecessarily spend additional
    funds on the heptyl disposition facility. If the MOD wants the disposition
    facilities as a contingency, DoD should consider turning the heptyl disposition
    facility over to the Russian government, and allow the MOD to finance any
    additional work on the facility. Should it decide to maintain the facility, DoD
    should limit additional obligations and disbursements to assistance that facilitates
    elimination of weapons of mass destruction.

    DoD should also consider options for the removal, transportation, and storage of
    the heptyl and amyl that remains in ballistic missiles, as that assistance benefits
    commercial space launches for Russia. The proceeds from the sale of heptyl and
    amyl could be used for CTR Program purposes.


Management Comments on the Finding and Audit Response
    Deputy Under Secretary of Defense, Technology Security Policy and
    Counterproliferation. The Deputy Under Secretary of Defense (Technology
    Security Policy and Counterproliferation) stated that in addition to those
    management actions taken already outlined in the report, the Deputy Under
    Secretary drafted an SOAE Joint Requirements and Implementing Plan;
    commenced an SOAE audit and examination on August 24, 2002; and drafted a
    Transparency Protocol for the Fissile Material Storage Facility at Mayak, Russia.

    The Deputy Under Secretary estimated that 15,000 metric tons of heptyl remain in
    Russian ballistic missiles that were identified for dismantlement in the future.
    Because the Russian MOD indicated that the heptyl would not be available for
    conversion and would be used instead in the commercial space program, the
    Deputy Under Secretary agreed that the proceeds from the sale of that heptyl
    should be monitored, applied to other CTR projects, and become the subject of
    future audits and examinations.

    Audit Response. We commend the Deputy Under Secretary’s office for its
    efforts to acquire greater Russian commitments, further DoD access and audits




                                         13
    and examinations rights, and commit to the view that proceeds from the sale of
    heptyl for the commercial space launch program be monitored, applied to other
    CTR projects, and become the subject of future audits and examinations.

    Defense Threat Reduction Agency. The Deputy Director, DTRA stated that
    DTRA assesses the potential risk to a project after the requirement has been
    identified and when a plan for implementation is being developed. The Deputy
    Director also stated that based on its annual evaluation, consisting of several steps
    to assess the project plan’s overall risk of succeeding, and the possible misuse of
    the assistance, DTRA would develop strategies to mitigate the risk in each of
    these areas. However, the Deputy Director stated that the steps occur after the
    United States anticipates making a significant investment in facilities to destroy
    or convert the materials. The Deputy Director also stated that DTRA informally
    provides the possible alternative uses of the item to the Office of the Under
    Secretary of Defense for Policy.

    Audit Response. We recognize factors exist that are beyond the control of
    DTRA, such as knowing a foreign country’s possible intentions. However,
    identifying possible alternative uses of the involved material and sharing that
    information with the Office of the Under Secretary of Defense for Policy would
    assist DoD management in taking actions to mitigate the risks.


Recommendations, Management Comments, and Audit
  Response
    A.1. We recommend that the Under Secretary of Defense for Policy:

          a. Negotiate amendments to Cooperative Threat Reduction Program
    implementing agreements with Russia that:

                  (1) Require a commitment from Russia to provide the weapon
    systems and their components when the United States anticipates that it will
    make a significant investment in facilities.

    Management Comments. The Deputy Under Secretary of Defense (Technology
    Security Policy and Counterproliferation) concurred, stating that executive agents
    for Russia have agreed to amend implementing agreements to include binding,
    legal commitments to use U.S. assistance for intended purposes. The Deputy
    Under Secretary also stated that Russian officials agreed to complete and sign
    documents that describe assumptions, requirements, and responsibilities for each
    project.

                  (2) Provide adequate access rights to DoD, including audits
    and examinations and access to materials identified for destruction or
    conversion in facilities for which the United States pays.

    Management Comments. The Deputy Under Secretary of Defense (Technology
    Security Policy and Counterproliferation) concurred, stating that an implementing



                                         14
arrangement was drafted for signature between DoD and RASA, providing
U.S. representatives continuous access to Russian project sites when contracted
services are ongoing.

             (3) Provide for remedies when Russia fails to use the
equipment, services, and training DoD supplies.

Management Comments. The Deputy Under Secretary of Defense (Technology
Security Policy and Counterproliferation) concurred but stated that although
remedies can be included in agreements, doing so may not be beneficial from a
policy perspective. The Deputy Under Secretary agreed to investigate the matter
further.

Audit Response. Although the Deputy Under Secretary concurred with the
recommendation, additional comments are requested. After the investigation of
remedies is completed, we request that the comments explain the planned course
of action.

        b. Expedite the determination of the future of the heptyl disposition
facility.

Management Comments. The Deputy Under Secretary of Defense (Technology
Security Policy and Counterproliferation) concurred stating that DoD is reviewing
recommendations DTRA provided on September 4, 2002.

Audit Response. In response to this report, we request that the Deputy Under
Secretary state the planned use of the heptyl disposition facility and any
completion dates.

      c. Request that Russia use the proceeds from the sale of heptyl for
Cooperative Threat Reduction Program purposes.

Management Comments. The Deputy Under Secretary of Defense (Technology
Security Policy and Counterproliferation) concurred, stating that the amended
SOAE implementing agreement provides for audits of proceeds from CTR
assistance. The Deputy Under Secretary also believes that the proceeds from
heptyl transferred or sold for Russia’s commercial space launch program must be
monitored, applied to other projects, and become subject to future audits and
examinations.

Audit Response. The Deputy Under Secretary concurred with the
recommendation, however, in response to this report, we request clarification on
the planned actions that will ensure proceeds from the sale of heptyl are used for
CTR Program purposes.

       d. Mitigate the risks to achieving program objectives after receiving
the program risks from the Director, Defense Threat Reduction Agency.

Management Comments. The Deputy Under Secretary of Defense (Technology
Security Policy and Counterproliferation) concurred.



                                    15
Audit Response. Although the Deputy Under Secretary concurred with the
recommendation, the Deputy Under Secretary did not provide planned actions and
the completion date of the planned actions. In responding to this report, we
request that the Deputy Under Secretary provide the actions planned to meet the
intent of the recommendation.

A.2. We recommend that the Director, Defense Threat Reduction Agency:

       a. After the Under Secretary of Defense for Policy negotiates
improved access, perform more complete inspections of equipment provided
to Russia that will ensure proper usage.

Management Comments. The Director, DTRA concurred, stating that pending
Office of the Under Secretary of Defense for Policy approval of agreements on
audits and examinations, the audit and examination team is preparing to inspect
intermodal containers to determine the container contents and review associated
shipping documents.

        b. Identify potential alternative uses of the involved material as a
risk to achieving program objectives when the United States anticipates
making a significant investment in facilities to destroy or convert those
materials.

Management Comments. The Director, DTRA concurred, stating that when the
United States anticipates making a significant investment in facilities to destroy
or convert those materials, DTRA will formally provide alternative uses of
materials to the Office of the Under Secretary of Defense for Policy.

       c. Report annually, and as needed, to the Under Secretary of Defense
for Policy risks to achieving program objectives.

Management Comments. The Director, DTRA concurred, stating that they will
send a report that notes the risks in achieving program objectives to the Office of
the Under Secretary of Defense for Acquisition, Technology and Logistics for
signature and transmittal to the Under Secretary of Defense for Policy.




                                    16
Appendix A. Scope and Methodology
   We reviewed DoD methods and policies used to administer the CTR Program,
   which included program, project, and financial management. The review
   included provisions of Nunn-Lugar legislation, international agreements, DoD
   directives, and OMB circulars. The documentation reviewed covered July 1991
   through July 2002.

   We conducted interviews with officials from the Office of the Under Secretary of
   Defense for Policy; General Counsel, DoD; DTRA; the National Aeronautics and
   Space Administration; the Harvard-Smithsonian Center for Astrophysics; and
   International Launch Services, Incorporated. We also visited project sites in
   Russia to interview Russian officials and U.S. contractor representatives. In
   addition, we observed CTR Directorate personnel while they reviewed the heptyl
   and amyl projects at sites within Russia.

   We evaluated the ability of DoD to efficiently and effectively manage the CTR
   Program. Specifically, we identified and analyzed requirements, policy, and
   guidance DoD and DTRA officials established and implemented to provide
   assistance to Russia. The review included an examination of the Strategic Arms
   Reduction Treaty I and Strategic Arms Reduction Treaty II and an evaluation of
   the umbrella agreement and the SOAE-Russia implementing agreement between
   DoD and Russia. Also, we examined the audit and examination process of the
   CTR Program, compared the controls over the liquid rocket propellant disposal
   with management control requirements published by the Office of Management
   and Budget and the General Accounting Office. In addition, we evaluated the
   viability of the liquid propellant disposition facility.

   We performed this audit from April through August 2002 in accordance with
   generally accepted government auditing standards. The DTRA project manager
   arranged meetings with Russian officials. Staff of the IG DoD accompanied the
   DTRA team on its review of the project. However, given that Russia is a
   sovereign nation, we were limited in the types of questions we could ask Russian
   officials and access to internal Russian records. We did not review the
   management control program in this audit.

   Use of Computer-Processed Data. We did not evaluate the general and
   application controls of the Centralized Accounting and Financial Resource
   Management System, which accounts for DTRA funds because that was outside
   the scope of our review. To support the obligations and disbursements for the
   liquid propellant disposition facilities and other assistance related to transporting
   and storing heptyl and amyl, we relied on data that system produces. Inadequate
   controls in the Centralized Accounting and Financial Resource Management
   System could affect the obligations and disbursements included in this report.




                                         17
Appendix B. Prior Coverage
    During the last 5 years, the General Accounting Office and the IG DoD have
    issued seven reports that discuss the CTR Program. General Accounting Office
    reports can be accessed on the Internet at http://www.gao.gov. IG DoD reports
    can be accessed on the Internet at http://www.dodig.osd.mil/audit/report.


General Accounting Office
    GAO Report No. 01-694, “Cooperative Threat Reduction: DoD Has Adequate
    Oversight of Assistance, but Procedural Limitations Remain,” June 19, 2001

    GAO Report No. NSIAD-0040 (OSD Case No. 1942), “Cooperative Threat
    Reduction: DoD’s 1997-98 Reports on Accounting for Assistance Were Late and
    Incomplete,” March 15, 2000

    GAO Report No. RCED/NSIAD-00-82, “Nuclear Nonproliferation: Limited
    Progress in Improving Nuclear Material Security in Russia and the Newly
    Independent States,” March 6, 2000

    GAO Report No. NSIAD-99-76 (OSD Case No. 1756), “Weapons of Mass
    Destruction: Effort to Reduce Russian Arsenals May Cost More, Achieve Less
    Than Planned,” April 13, 1999


IG DoD
    IG DoD Report No. D-2002-033, “Management Costs Associated With the
    Defense Enterprise Fund,” December 31, 2001

    IG DoD Report No. D-2001-074, “Cooperative Threat Reduction Program,”
    March 9, 2001

    IG DoD Report No. D-2000-176, “Defense Enterprise Fund,” August 15, 2000




                                      18
Appendix C. Liquid Propellant Disposition
            Process
   The liquid propellant disposition project includes removing heptyl and amyl from
   missile elimination sites, transporting heptyl and amyl to storage sites, and
   processing heptyl and amyl with disposition systems. The project was to be
   conducted in three phases. Heptyl and amyl was first removed from Russian
   liquid propelled intercontinental ballistic missiles and liquid propelled submarine-
   launched ballistic missiles. That heptyl and amyl was then transported to storage
   bases owned and operated by the Russian MOD. Those locations include Ilyino,
   Moshkovo, Mulyanka, Rada, Turinskaya, and Vanino, Russia. Transportation of
   the heptyl and amyl was provided through CTR-contracted services using
   CTR-supplied equipment. Disposal of heptyl and amyl would occur upon
   delivery of the fuel from the MOD storage bases. The figure below outlines the
   liquid propellant disposition process.




               LP SLBM                            CTR-Contracted
               Elimination                          Defueling




                                                     Rocket
             CTR-Contracted                            Fuel           CTR-Supplied
                Service                           Transportation       Equipment




             Operation Under                        Rocket Fuel       Fuel Disposition
            Russian Federation                        Storage             System         CTR-Contracted
           Ministry Of Defense                    Technical Support     Krasnoyarsk      Fuel Processing
           Custody And Control                          Base



                                                     Rocket
             CTR-Contracted                                           CTR-Supplied
                                                       Fuel
                Service                                                Equipment
                                                  Transportation




                LP ICBM                           CTR-Contracted
               Elimination                          Defueling



      LP Liquid Propelled
      SLBM Submarine Launched Ballistic Missile
      ICBM Intercontinental Ballistic Missile




   Source: Defense Threat Reduction Agency

   Liquid Propellant Disposition Process




                                                             19
Appendix D. Pictures of the Heptyl Disposition
            Facility, Krasnoyarsk, Russia




    Figure D-1. Aerial view of the Heptyl Disposition Systems and
    Infrastructure




    Figure D-2. Ground View of the Heptyl Fuel Disposition System




                                     20
Figure D-3. Exterior of One of the Two Heptyl Disposition Units




Figure D-4. Interior of One of the Two Heptyl Disposition Units




                                 21
Figure D-5. Hydrogen Generator Buildings (One for Each Disposition Unit)




Figure D-6. Steam Generator Rooms (One for Each Disposition Unit)




                                22
Figure D-7. Exterior of the Computer Process Control and Water
Treatment System Building




Figure D-8. Interior of the Computer Process Control Room




                               23
Appendix E. Heptyl-Fueled Launches and Heptyl
            Use Since 1990
   According to available data,1 compared to 1990 and 1991 levels, the number of
   Russia’s heptyl-fueled space launches has fallen since 1992. Also, generally the
   amount of heptyl used after 1991 decreased, but not as much as launches because
   the average number of launches that use Proton launch vehicles has decreased at a
   lesser rate. Since 1995, when the Defense Nuclear Agency contracted to build the
   heptyl disposition facility and RASA officials stated that Russia stopped
   producing new heptyl, Russia could have used more than 25,000 metric tons of
   heptyl.

   Heptyl-Fueled Launches. Heptyl-fueled space launches decreased significantly
   after 1991. Heptyl-fueled launch vehicles include the Dnepr (a converted SS-18
   ballistic missile), Kosmos-3, Proton, Rokot (a converted SS-19 ballistic missile),
   and Tsyklons. In 1990 and 1991, Russia had 34 launches and 31 launches,
   respectively. Between 1992 and 2001, however, Russia averaged 16.3 launches a
   year, a 47-percent decrease from 1991. In 1992 and 1993, the number of launches
   decreased each year to 20 launches. After heptyl-fueled launches increased to 27
   in 1994, from 1995 through 1999 the number of launches decreased to 15 or less.
   In 2000, heptyl-fueled launches increased to 20, but decreased in 2001 to 10. For
   2002, Russia had six heptyl-fueled launches through June. (See Figure E-1)

   Proton Launch Vehicles. Heptyl use did not decrease as significantly as the
   number of launches because the number of launches using the Proton launch
   vehicle did not decrease as much as launches using other launch vehicles. When
   compared to Russia’s other heptyl-fueled launch vehicles, the Proton uses
   considerably more fuel. Depending on the configuration, fuel use for each Proton
   launch ranges from between 172 and 178 metric tons of heptyl. In comparison,
   fuel use for other heptyl-fueled launch vehicles ranges from 25.2 metric tons to
   53 metric tons of heptyl. In 1990 and 1991, Russia had 11 and 9 Proton launches,
   respectively. Between 1992 and 2001, however, Russia averaged 8.7 Proton
   launches per year, a 3-percent decrease from 1991. In 1992 and 1993, the number
   decreased to eight launches and six launches, respectively. After increasing in
   1994 to 13, Proton launches decreased to 9 or less from 1995 through 1999. In
   2000, Proton launches increased to 14, but decreased to 6 in 2001. For 2002,
   Russia has had three Proton launches through June. (See Figure E-1)

   1
       We were not able to locate official launch and fuel use data published by the Russian Federation.
       Instead, the number of launches was provided on the Internet at Gunter’s Space Page,
       http://www.skyrocket.de/space/space.html. As National Aeronautical and Space Administration
       officials suggested, we compared launches for 1990 through 1997 on Gunter’s Space Page
       against data an astrophysicist for Harvard-Smithsonian Center for Astrophysics provided. For
       1998 through June 2002 launches, we compared the data used against data maintained by the
       National Aeronautical and Space Administration. The launch data agreed, except Gunter’s
       Space Page included two sub-orbital launches that the astrophysicist and officials from the
       National Aeronautical and Space Administration stated they excluded. The Office of Under
       Secretary of Defense for Policy provided data for fuel use on each launch vehicle.



                                                24
Heptyl Use. Although the number of heptyl-fueled launches decreased after
1990, heptyl use did not decrease as significantly as the launches decreased. In
1990 and 1991, Russia used about 2,800 metric tons of heptyl and about 2,350
metric tons of heptyl during space launches, respectively. Between 1992 and
2001, however, Russia used an annual average of more than 1,800 metric tons, a
23-percent decrease from 1991. In 1992 and 1993, the use of heptyl decreased to
more than 1,800 metric tons and almost 1,600 metric tons of heptyl. After its use
increased to more than 2,800 metric tons in 1994, heptyl use decreased from 1995
through 1999 to between about 1,400 metric tons and almost 1,800 metric tons.
In 2000, heptyl use increased to about 2,700 metric tons, but decreased to more
than 1,200 metric tons in 2001. For 2002, Russia has used more than 600 metric
tons of heptyl through June. (See Figure E-2)

Heptyl Use Since 1995. Since 1995, when the Defense Nuclear Agency
contracted to build the heptyl disposition facility and RASA officials stated
RASA stopped producing new heptyl, Russia could have used more than 25,000
metric tons of heptyl. From 1995 through June 2002, Russia had 102 heptyl-
fueled launches using more than 12,500 metric tons of heptyl. The amount of
heptyl Russia used could be significantly higher because, according to




                                   25
RASA officials, Russia test fires each rocket using 100 percent of the fuel
capacity. Therefore, Russia could have used in its space program more than
25,000 metric tons of heptyl since 1995.2 (See Figure E-2)




2
    According to an official at the National Aeronautics and Space Administration, each rocket
    engine undergoes acceptance testing using procedures agreed to between the manufacturer and
    user. That testing may or may not include a flight-duration test to evaluate flight worthiness. In
    addition, he stated that the engines would also undergo development, qualification, and
    certification testing, all of which would consume fuel.



                                              26
Appendix F. Report Distribution

Office of the Secretary of Defense
Deputy Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Policy
  Assistant Secretary of Defense (International Security Policy)
     Deputy Under Secretary of Defense (Technology Security Policy and Counter-
        Proliferation)
General Counsel of the Department of Defense

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)

Unified Command
Commander in Chief, U.S. European Command

Other Defense Organizations
Director, Defense Threat Reduction Agency

Non-Defense Federal Organization
Office of Management and Budget




                                          27
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Subcommittee on Emerging Threats and Capabilities, Committee on Armed
  Services
Senate Committee on Foreign Relations
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Committee on International Relations
House Subcommittee on International Economic Policy and Trade, Committee on
  International Relations




                                          28
Office of the Under Secretary of Defense for
Policy




                       29
Final Report
 Reference




Modified

Modified


Modified




Modified




Modified




               30
     Final Report
      Reference




     Modified




     Modified




31
32
     Final Report
      Reference




     Page 14




     Page 15




     Page 15




     Page 17
     Modified




33
Defense Threat Reduction Agency Comments




                    34
35
Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Shelton R. Young
Evelyn R. Klemstine
Donney J. Bibb
Michael T. Brant
Lynne M. Champion
Mason A. Kaur
Sharon L. Carvalho
